Nos. 20-107
IN THE SUPREME COURT OF THE UNITED STATES
CEDAR POINT NURSERY, ET AL. PETITIONERS
v.
VICTORIA HASSID, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE IN SUPPORT OF
REVERSAL, via e-mail and first-class mail, postage prepaid, this 7th day of January, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8955
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 7, 2021.

January 7, 2021

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-0107
CEDAR POINT NURSERY, ET AL.
HASSID, VICTORIA, ET AL.

PAUL J. BEARD
FISHER BROYLES LLP
4470 2. SUNSET BLVD
SUITE 93165
LOS ANGELES, CA 90027
818-216-3988
PAUL. BEARD@FISHERBROYLES.COM
MICHAEL M. BERGER
MANATT, PHELPS & PHILLIPS
2049 CENTURY PARK EAST
SUITE 1700
LOS ANGELES, CA 90067
MMBERGER@MANATT.COM
CARL GALE BORDEN
2600 RIVER PLAZA DR.
SACRAMENTO, CA 95833
916-561-5659
CBORDEN@CFBF.COM
ANTHONY THOMAS CASO
CENTER FOR CONSTITUTIONAL
JURISPRUDENCE
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
CASO@CHAPMAN.EDU

BRYAN GREGG CLEVELAND
OKALAHOMA ATTORNEY GENERAL'S
OFFICE
313 NE 21ST STREET
OKLAHOMA CITY , OK 73105
405-521-3921
BRYAN.CLEVLAND@OAG.OK.GOV
CYNTHIA FLEMING CRAWFORD
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
7TH FLOOR
ARLINGOTN, VA 22201
571-329-2227
CCRAWFORD@AFPHQ.ORG
WENCONG FA
PACIFIC LEGAL FOUNDATION
930 G. STREET
SACRAMENTO, CA 95814
916-419-7111
WF@PACIFICLEGAL.ORG
STEFFEN NATHANAEL JOHNSON
WILSON SONSINI GOODRICH & ROSATI
1709 K STREET, NW
WASHINGTON, DC 20006
SJOHNSON@WSGR.COM
TIMOTHY VARTKES KASSOUNI
PELICAN INSTITUTE FOR PUBLIC POLICY
400 POYDRAS STREET
SUITE 900
NEW ORLEANS, LA 70130
504-952-8016
TIMOTHY@KASSOUNILAW.COM

MATTHEW LITTLETON
DONAHUE, GOLDBERG, WEAVER &
LITTLETON
1008 PENNSYLVANIA AVE., SE
WASHINGTON, DC 20003
MATT@DONAHUEGOLDBERG.COM
THOMAS TYAN MCCARTHY
CONSOVOY MCCARTHY PLLC
1600 WILSON BOULEVARD
SUITE 700
ARLINGTON, VA 22209
TOM@CONSOVOYMCCARTHY.COM
JOHN PAGLIARO
THE NEW ENGLAND LEGAL FOUNDATION
150 LINCOLN STREET
BOSTON, MA 02111
617-695-3660
JOHNPAGLIARO@NELFONLINE.ORG
JOSHUA PATASHNIK
CALIFORNIA DEPT OF JUSTICE
455 GOLDEN GATE
SUITE 11000
SAN FRANCISCO, CA 94102
415-510-3896
JOSH.PATASHNIK@DOJ.CA.GOV
JEFFREY HALLETT REDFERN
INSTITUTE FOR JUSTICE
901 NORTH GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
612-308-1084
JREDFERN@IJ.ORG

JEFFREY MICHAEL SCHWAB
LIBERTY JUSTICE CENTER
208 SOUTH LASALLE STREET
SUITE 1690
CHICAGO, IL 60604
312-637-2280
JSCHWAB@LIBERTYJUSTICECENTER.ORG
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
ROBERT H. THOMAS
DAMON,KEY, LEONG,KUPCHAK,HASTERT
1600 PAUAHI TOWER
1003 BISHOP STREET
HONOLULU, HI 96813
808-531-8031
RHT@HAWAIILAYWER.COM
JOSHUA PAUL THOMPSON
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
JTHOMPSON@PACIFICLEGAL.ORG
CRISTEN ALICE WOHLGEMUTH
MOUNTAIN STATES LEGAL FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD , CO 80227
303-292-2021
CRISTEN@MSLEGAL.ORG

